V

No.

10-1175

In the Supreme Court of the United States

SANDRA DEMUTH,
Plaintiff-Appellant,
-vUNITED STATES SMALL BUSINESS
ADMINISTRATION, CHRISTOPHER
PILKERTON, in his official capacity as
Acting Administrator of Small Business
Administration,
Defendants-Appellees,
MARIA CONTRERAS-SWEET, Administrator,
Defendant.
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Second Circuit
PETITION FOR A WRIT OF CERTIORARI

filed
FEB 2 2 2021
C!7 !T>

Sandra DeMuth, Pro Se
14 Alys Dr. E.
Depew, NY 14043
(716)-681-2257

RECEIVED
FEB 2 h 2021
SUPREME^COUr7LUFSK

V

QUESTIONS PRESENTED
Does “shall be made free from any discrimination” prohibit personnel actions
where either discrimination and/or retaliation are a factor?
Does Title VII ban retaliation in federal employment?
It appears that different standards amongst District Courts to apply tests in
cases involving discrimination and retaliation. Should this be standardized across
the country?
Is it constitutional or appropriate to utilize summary judgment in
discrimination cases?

ii

PARTIES
The Petitioner is Sandra DeMuth.
The Respondent is Acting Administrator, Small Business Administration.

iii

TABLE OF CONTENTS
Questions Presented...........................................................................

n

Parties...................................................................................................

m

Table of Contents...............................................................................

IV

Appendix.................................................................................................

v

Table of Authorities............................................................................

vi

Petition for Writ of Certiorari..........................................................

1

Opinions and Orders Below..............................................................

3

Jurisdiction...........................................................................................

3

Statutory and Constitutional Provisions Involved.....................

3

Statement of the Case........................................................................

3

Legal Background...............................................................................

4

Retaliation................................................................................

4

Equal Pay Act...........................................................................

6

Lilly Ledbetter Fair Pay Act of 2009...................................

7

Factual Background............................................................................

7

The Applications Manual.......................................................

10

Not Allowed to Respond to False Accusations in Letters

11

Plaintiff Filed Claims With EEOC......................................

11

Proceedings Below...............................................................................

12

Reasons for Granting the Writ.........................................................

13

Clarification..........................................................................................

15

Is Summary Judgment Constitutional and Appropriate
in Discrimination Lawsuits...................................................
Conclusion

15
16

iv

APPENDIX
Order of the United States Second Circuit Court of Appeals, Petition for Hearing or
Hearing En Banc, September 25, 2020
la
Summary Order, United States Second Circuit Court of Appeals
July 7, 2020............................................................................

2a

Decision and Order of the District Court for the Western District of New York,
May 3, 2019
10a
Report and Recommendation, United States District Court,
Western District of New York February 21, 2019......
Excerpts from Mr. Guido’s Deposition...................................
Email from Mr. Malek to Mr. Guido - timeline for projects ..

'\

V

12a
30a
32a

TABLE OF AUTHORITIES

Cases
Anderson v. Liberty Lobby, Inc., All U.S. 242, 248 (1986......................

2

Burlington N. & Santa Fe Ry. Co. v. White, 548 U.S. 53, 67-68 (2006)

4,14

Caldwell v. Johnson, EPA, No. 05-1706 (Aug. 15, 2008).........................

4

Canady v. Union 1199, 253 F. Supp. 3d 547, 554 (W.D.N.Y. 2017), aff’d sub nom.
Canady u. Univ. of Rochester, 736 F. App’x 259 (2d Cir. 2018)
8
Carole Tomka, Plaintiff-appellant, v. the Seiler Corporation, Daniel Lucey, et al, 66
F.3d 1295 (2d Cir. 1995)..................................................................
4
Complainant v. Dep’t of Homeland Sec., EEOC DOC 0720140014,
Complainant v. Dep’t of Homeland Sec., EEOC DOC 0720140037,
Ford v. Mabus, 629 F.3d 198, 206-07 (D.C. Cir. 2010).........................

1,3

Gomez-Perez u. Potter, 553 U.S. 474, 479, 487 (2008)...........................

2,3

Gross u. FBL Financial Services, Inc., 557 U.S. 167 (2009).................
Hubbell v. Fedex Smartpost, Inc.

1,3

F.3d___; 2019 WL 354786 (Aug. 5, 20195,14

Lapka v. Chertoff, 517 F.3d 974, 985-86 (7th Cir. 2008).........................

5

Ledbetter v. Goodyear Tire & Rubber Co., Inc., 550 U.S. 618 (2007)....

7

Marvel Characters, Inc. v. Simon, 310 F.3d 280, 286 (2d Cir. 2002....

2

McDonnell Douglas Corp. v. Green, 411 U.S. 792(1973)........................

2,3,13

Oncale v. Sundowner Offshore Servs., Inc., 523 U.S. 75, 81-82 (1998))

15

Petitioner v. Dep’t of Interior, EEOC DOC 0320110050,
Savage v. Dep’t of Army, 122 M.S.P.R. 612, 634 (Sept. 3, 2015)...........

1

Univ. of Tex. SWMed. Ctr. v. Nassar, 570 U.S. 338 (2013)....................

1,4

Univ. of TX. SWMed. Ctr. v. Nassar, 570 U.S. 338(2013)....................

4

Statutes and Rules
42 U.S.C. § 2000e-16(b)

1

29 U.S.C. § 633a(a)......

2,4

29 C.F.R. §1614..........

8

42 U.S.C. § 2000e-3(a)..

3

Fed. R. Civ. P. 56(a).....

2
vi

Other
Equal Pay Act of 1963..............................

6,15

Lilly Ledbetter Fair Pay Act Of 2009.....

7

Merit Systems Protection Board (MSPB)

1

vii

PETITION FOR WRIT OF CERTIORARI
“At the current time, federal employees filing claims under Title VII face
inexplicably differing standards of proof depending on where they file. The only
post-Gross federal court to consider and resolve the textual differences between
the private- and federal-sector provisions of the statutes recognized that the
“free from” language recognizes an actionable claim if age discrimination is “a
factor” in the claim. See Ford v. Mabus, 629 F.3d 198, 206-07 (D.C. Cir. 2010)
(discussing case-law interpretations of similar language along with the fact
that Congress deliberately prescribed a distinct statutory scheme applicable
only to federal employees using “sweeping language”). When considering
federal-sector discrimination claims, including retaliation claims, within their
jurisdiction the Equal Employment Opportunity Commission (EEOC) and the
Merit Systems Protection Board (MSPB) have come to the same conclusion.
See Complainant v. Dep’t of Homeland Sec., EEOC DOC 0720140014, 2015
WL 5042782, at *5-6 (Aug. 19, 2015) (retaliation under Title VII or ADEA);
Complainant v. Dep’t of Homeland Sec., EEOC DOC 0720140037, 2015 WL
3542586, at*4-5 (May 29, 2015) (retaliation under Title VII); see also Petitioner
v. Dep’t of Interior, EEOC DOC 0320110050, 2014 WL 3788011, at *10 n.6 (July
16,2014) (holding that the “but-for” standard does not apply in federal-sector
Title VII or ADEA cases); Savage v. Dep’t of Army, 122 M.S.P.R. 612, 634 (Sept.
3, 2015) (retaliation under Title VII);
The EEOC is the executive agency to which Congress gave enforcement
authority on federal- sector EEO matters. 42 U.S.C. § 2000e-16(b); see also
Exec. Order No. 12067, 43 Fed. Reg. 28967 (June 30, 1978). The EEOC has
addressed the separate standard for federal employees in its EEOC
Enforcement Guidance on Retaliation and Related Issues, No. 915.004 (Aug.
25,
2016)
(available
at
www .EEOC, gov/laws/guidance/retaliationguidance, cfm). In Section II.C, the guidelines address causation. Subsection
Il.C.l.b provides the following:
By contrast, in federal sector Title VII and retaliation cases, the
Commission has held that the “but for” standard does not apply because the
relevant federal sector statutory provisions do not employ the same language
on which the Court based its holding in Nassar. The federal sector provisions
contain a “broad prohibition of ‘discrimination’ rather than a list of specific
prohibited practices,” requiring that employment “be made free from any
discrimination,” including retaliation. Therefore, in Title VII cases against a
federal employer, retaliation is prohibited if it was a motivating factor.
Given the broad, general, sweeping “free from” language, a federal employee
should be able to establish a retaliation claim under 42 U.S.C. § 2000e- 16
where a prohibited consideration was a factor or motivating factor in the
contested personnel action, even if it was not the only reason. In making this
statement, we recognize that this Court has not yet addressed the statutory
1

basis for a federal-sector retaliation claim. The same broad, general, sweeping
“free from” language of § 2000e-16 should form the statutory basis for such a
claim. See Gomez-Perez v. Potter, 553 U.S. 474, 479, 487 (2008) (finding
retaliation provisions embodied within the “free from any discrimination”
language of 29 U.S.C. § 633a(a)). The Second Circuit panel determined that it
is bound by a prior decision applying a McDonnell Douglas test and a but-for
causation standard to a federal-sector retaliation case.
Several other Circuits have had this issue presented to them by federal
employees but have avoided deciding the issue.
As a result, federal employees face different burdens of proof depending on
where they work and where they may file a claim. These are not statutory
factors that should affect their rights. In many instances, federal employees do
not know what that burden will be.”
[Note that the above is cited from Babb v.Dept. Of Veterans Affairs, Writ of
Certiorari, JOSEPH D. MAGRI, Counsel of Record.]
The instant case, DeMuth v SBA, shows the courts relying on Douglas standards,
however, for a federal employee, there are other opinions throughout the country.
Plaintiff Sandra DeMuth respectfully prays that this Court grant a writ of
certiorari to review the judgment and opinions of the United States Court of Appeals
for the Second Circuit entered on September 25, 2020 and resolve these disparities.
The court states that are no issues of material fact. Disputes to assertions of
defendant were responded to at l:16-cv-00125-RJA-HBS Document 33 Filed
09/28/18 (my responses to statement of undisputed facts - many of them are
disputed).
“The court shall grant summary judgment if the movant shows that there is
no genuine dispute as to any material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a).
“As to materiality, the substantive law will identify which facts are material.
Only disputes over facts that might affect the outcome of the suit under the
governing law will properly preclude the entry of summary judgment.... More
important for present purposes, summary judgment will not lie if the dispute about
a material fact is ‘genuine,’ that is, if the evidence is such that a reasonable jury
could return a verdict for the nonmoving party.” Anderson v. Liberty Lobby, Inc.,
All U.S. 242, 248 (1986) (citation omitted).
“The party seeking summary judgment has the burden to demonstrate that
no genuine issue of material fact exists. In determining whether a genuine issue of
material fact exists, a court must examine the evidence in the light most favorable
to, and draw all inferences in favor of, the non-movant. . . .Summary judgment is
improper if there is any evidence in the record that could reasonably support a
jury’s verdict for the non-moving party.” Marvel Characters, Inc. v. Simon, 310 F.3d
280, 286 (2d Cir. 2002) (citations omitted)
2

In one instance, the movant has disingenuously provided the court with a
copy of two pages of Mr. Guido’s deposition taken by my counsel (Pages 134-135 and
excluded Pages 132 to 133, which shows Mr. Guido estimating the time it would take to
write the applications manual.
“. . . It’s something I originally thought could get caught up in a reasonable way in a
month if dedicated to it.”
Combine that with all of the requirements in the Letter of Expectations, including
the SCR taking 30-32 days and you will come to the conclusion that Mr. Guido deliberately
assigned something that was physically impossible to do in the time frame of March 23-May
5, 2010.
In the interest of justice, the movant should not have excluded the relevant pages.
OPINIONS AND ORDERS BELOW
The September 25, 2020 Petition for Hearing or Hearing En Banc is set out at
Pg. la of the Appendix. The July 7, 2020 Summary Order of the Second Circuit Court
of Appeals is set out at Pgs. 2a-9a of the Appendix. The May 5, 2019 order of the
district court, is set out at Pgs. lOa-lla of the Appendix.
JURISDICTION
The decision of the court of appeals were entered on July 7, 2019. A timely
petition for rehearing and rehearing en banc was denied on September 25, 2020. This
Court has jurisdiction pursuant to 28 U.S.C. § 1254(1).
STATUTORY AND CONSTITUTIONAL PROVISIONS INVOLVED
Section 717(a) of Title VII of the Civil Rights Act of 1964 (hereafter, “Title VII”), 42
U.S.C. § 2000e-16(a), provides in pertinent part: “All personnel actions affecting
employees or applicants for employment ... in executive agencies as defined in
section 105 of Title 5 . . . shall be made free from any discrimination based on race,
color, religion, sex, or national origin.”
STATEMENT OF THE CASE
“The only Court of Appeals decision that has actually addressed the statutory
language, Ford v. Mabus, 629 F.3d 198, 206-07 (D.C. Cir. 2010), determined
that the much broader “free from” language applicable to federal-sector employees
should be interpreted differently than the “because of’ language applicable to privatesector employees. It was decided after Gross, but before Nassar. As such, only the
Eleventh Circuit’s decision “resolved” the statutory language difference since Gross
and Nassar.” [Note that the above is again cited from Babb v.Dept. Of Veterans
Affairs, Writ of Certiorari, Joseph D. Magri, Counsel of Record.]
In the present case, the district court and the panel of the Second Circuit Court
of Appeals felt bound by a prior decision that did not address the textual differences
between the private- and federal-sector provisions in holding that the McDonnell
Douglas test and a “because of’ or “but-for” standard governed the determination of
federal sector employees’ retaliation claims.
3

A.

LEGAL BACKGROUND

The statutory language prescribing the standard of causation applicable to
federal employees in retaliation cases differs from the language applicable to privatesector employees. Section 2000e-3(a) of Title VII does not apply to federal employees;
Section 2000e- 16(a) applies.
On the other hand, 42 U.S.C. § 2000e-16(a), applicable to federal employees,
contains different language: “All personnel actions affecting employees or applicants
for employment... in executive agencies as defined in section 105 of Title 5 . .. shall
be made free from any discrimination based on race, color, religion, sex, or national
origin.” (emphasis added).
Federal-sector retaliation claims under Title VII was unaddressed in GomezPerez. 553 U.S. at 488 n.4. In that case, this Court found retaliation provisions
embodied within the “free from any discrimination” language of 29 U.S.C. § 633a(a).
Id. at 479, 487. However, the rationale of Gomez-Perez requires that where, as in 42
U.S.C. § 2000e-16(a), when Congress uses the same broad, general language
applicable to the federal-sector as in 29 U.S.C. § 633a(a), it bars retaliation in addition
to status-based discrimination. Id.; see also Nassar, 570
RETALIATION
The district court is using the test involving Tomka v. Seiler, which is a
Second Circuit decision from 1995. He does not use the current standard, which is
“be made free from any discrimination” in the Report and Recommendation.
Burden for Proving Reprisal - Published on the internet by Passman
and Kaplan at https://www.passmanandkaplan.com/.
In Caldwell v. Johnson, Environmental Protection Agency, No. 05-1706 (Aug. 15,
2008), the United States Court of Appeals for Fourth Circuit held that Supreme
Court's ruling in Burlington N. & Santa Fe Ry. Co. v. White, 548 U.S. 53, 67-68
(2006), which lowered the burden for private sector plaintiffs alleging retaliation,
also applies to federal employees. Under White, an employee need not suffer an
"adverse action" to establish a prima facie case of retaliation, but instead must
show only that a reasonable employee would have found the challenged action
"materially adverse," meaning that "it might well have dissuaded a reasonable
worker from making or supporting a charge of discrimination."
In Caldwell, the appellant suffered various forms of retaliation, including
interference with her promotion opportunities, delay in approving her alterative
work schedule, being set up to miss a deadline, and receiving a formal letter of
warning. The district court granted summary judgment in favor of EPA, finding
that the appellant failed to show that EPA took an "adverse employment action"
against her, e.g., removal or suspension, because none of the actions she
complained of affected the "terms, conditions or benefits" of her employment. On
appeal, the appellant argued that the district court erred because it should have
applied the standard set forth in White where the Supreme Court determined that
4

the private sector anti-retaliation statute provides substantially broader protection
than had previously been applied and that plaintiffs were not required to show that
he/she suffered an "adverse action" to make out a retaliation claim.
In its decision, the Fourth Circuit noted that, unlike the statute that protects
private sector employees, the statute barring retaliation against federal employees
requires that the challenged action be a "personnel action," a term which Congress
did not define. The EPA contended that "personnel actions" included only actions
that had a direct monetary impact on an employee. The Fourth Circuit, however,
held that the relevant statutory language contradicts this contention. The EPA then
claimed that Congress must have intended to include the "adverse action"
requirement because otherwise it would have adopted the identical language from
the private employment context. The Fourth Circuit likewise found this
contention unsupported, explaining that cases decided before White supported the
proposition that the anti-retaliation standard that applies to private employees also
applies to federal employees.
The Fourth Circuit concluded that "it would be illogical for Congress to impose
an additional element of proof on federal employees when it has provided
identical remedies for federal and private employees who allege retaliation." The
Court noted that other circuits that have addressed the question have also all
applied the White standard. See e.g., Lapka v. Chertojf, 517 F.3d 974, 985-86 (7th
Cir. 2008) (applying White standard to DHS employee); Patterson v. Johnson,
505 F.3d 1296, 1299 (D.C. Cir. 2007) (applying White to EPA employee); Nair v.
Nicholson, 464 F.3d 766, 768-69 (7th Cir. 2006) (stating that "it is now settled
that retaliation to be actionable need not take the form of an adverse employment
action" in case involving federal employee).”
This was affirmed by the Third Circuit in Hubbell v. Fedex Smartpost, Inc.,
F.3d___; 2019 WL 354786 (Aug. 5, 2019).
Thus, for a federal employee to establish a prima facie case of retaliation, she must show:
1) that she engaged in protected activity, 2) that her agency took materially adverse action
against her, such that it could dissuade a reasonable worker from making or supporting a charge
of discrimination, and 3) that a causal relationship existed between the protected activity and the
materially adverse activity.”
In my case, I:
1) engaged in a protected activity in my discrimination and hostile environment
discussions with Ms. Hiem;
2) the SB A (Mr. Guido) issued a Letter of Expectations, the first written reprimand I
received ever (which was deliberately designed so no one, including me, could possibly
complete in the time frame given and gave me an immediate bad review; also the first
one I had ever received; and

5

3) was issued the Letter just three weeks after my conversations with management (Ms.
Hiam).
The Letter of Expectations did, in fact, dissuade me from making or supporting a
charge of discrimination with the EEOC thereafter. It wasn’t until I hired an attorney that she
convinced me of the necessity of filing my claims that I did so.
The retaliation question needs to be decided by a jury, among other questions.
Additionally, neither HR nor management investigated the discrimination and
hostility, which is required when there are complaints of these types.
EQUAL PAY ACT OF 1963 (from EEOC website)
The Equal Pay Act (EPA) prohibits sex-based wage discrimination between
men and women in the same establishment who perform jobs that require
substantially equal skill, effort, and responsibility under similar working
conditions.
•
Wages can include more than just hourly or annual pay. Wages
includes bonuses, company cars, expense accounts, insurance etc.
•
An employer cannot lower the wages of some employees to make wages
equal.
Things to Consider:
Equal Wages: Must be paid in the same form. For example, an employer
cannot pay a higher hourly wage to a male employee and then attempt to
equalize the difference by periodically paying a bonus to a female employee.
The EPA speaks in terms of equal work, but the word "equal" does not
require that the jobs be identical, only that they are substantially equal. In
comparing two jobs for purposes of the EPA, consideration should be given to
the actual job duties, not job titles or classifications. The EEOC looks at
whether both jobs require the same skill, effort and responsibility.
Skill: Measured by factors such as the experience, ability, education and
training required to perform a job. Possession of a skill not needed to meet
the requirements of the job should not be considered. For example, a hotel
clerk alleges that he is paid less than a female who performs substantially
equal work. He has a high school diploma while his female co-worker has a
college degree. However, performance of the two jobs requires the same
education, ability, experience, and training.
Therefore, the skill required to perform the two jobs is substantially equal. A
college degree does not justify a higher salary because it is not needed to
perform the job.
Effort: Amount of physical or mental exertion needed to perform job.
Responsibility is usually defined as the degree of accountability required in
performing a job. Factors to be considered in determining the level of
responsibility in a job include:
6

•
Extent to which employee works without supervision,
•
Extent to which employee exercises supervisory functions, and
•
Impact of employee's exercise of his or her job functions on the
employer's business.
Ordinarily, "establishment" means a physically separate place of business.
However, given that many employees have virtual offices, the EEOC assesses
whether the "establishment" is separate on a case-by-case basis.
Working conditions usually consist of two factors:
•
Surroundings, and
•
Hazards.
LILLY LEDBETTER FAIR PAY ACT OF 2009 (from EEOC website)
On January 29, 2009, President Obama signed the first piece of legislation of
his Administration: the Lilly Ledbetter Fair Pay Act of 2009 ("Act"). This law
overturned the Supreme Court's decision in Ledbetter v. Goodyear Tire &
Rubber Co., Inc., 550 U.S. 618 (2007), which severely restricted the time
period for filing complaints of employment discrimination concerning
compensation.
The Act states the EEOC's longstanding position that each paycheck that
contains discriminatory compensation is a separate violation regardless of
when the discrimination began. The Ledbetter Act recognizes the "reality of
wage discrimination" and restores "bedrock principles of American law."
Particularly important for the victims of discrimination, the Act contains an
explicit retroactivity provision.
People challenging a wide variety of practices that resulted in discriminatory
compensation can benefit from the Act's passage. These practices may include
employer decisions about base pay or wages, job classifications, career ladder
or other noncompetitive promotion denials, tenure denials, and failure to
respond to requests for raises.
Differences in pay that occur because of sex violate the EPA and/or Title VII of
the Civil Rights Act of 1964, as amended. In addition, compensation differences
based on race, color, religion, national origin, age, disability, genetic
information, and/or retaliation also violate laws enforced by EEOC.

B.

FACTUAL BACKGROUND

Here, the case is that Mr. Guido was angry and wanted to fire me because I
had gone to his Supervisor, Ms. Hiam, complaining about his recent treatment of
me and his male preferential treatment. He retaliated against me by issuing the
first letter in a series of letters designed by OPM to fire someone. He deliberately
included, in that letter, assignments which were impossible for anyone to
accomplish.
The Report and Recommendation states the following at Page 13:
7

“The Letter of Expectations and Performance Improvement Plan did not
change plaintiffs pay or any material terms or conditions of her
employment. Cf. Canady v. Union 1199, 253 F. Supp. 3d 547, 554
(W.D.N.Y. 2017), affd sub nom. Canady v. Univ. of Rochester, 736 F.
App’x 259 (2d Cir. 2018) (summary order) (Letter of Expectations was
not an adverse employment action and was supported bv prior
disciplinary history).
The very nature of the Letter of Expectations was that it was Step Number
One in firing a federal employee, according to OPM guidelines and did, in fact, lead
to my firing. Moreover, the Canady v. Union cite that the court uses is not
analogous to my situation because I had no prior disciplinary history and yet, the
court used it.
The fact that I had no prior disciplinary history during my employment with
the SBA ODA, would prompt any juror to raise an eyebrow in my favor.
The actual time it took to fire me is not what it looks like, due to the fact that
I was recovering from surgery for seven weeks and prior to that I had multiple days
consisting of testing, going to doctors and specialists where I either had to take a
partial day off or a full day. At the beginning of June, I had doctors’ appointments
and tests, so I did not work full time because I was not allowed to use credit hours.
After I filed my EEOC complaint on October 15, 2010,1 was not given much
to do and after the November, recommending I be fired, I had my network privileges
taken away from me. In all, the actual amount of time I worked after the Letter of
Expectations was approximately 5 months. The court concludes that the “plaintiff
simply has not provided enough information to allow a reasonable jury to suspect
that the November 12 and January 11 letters were anything more than a
continuation of a year-long concern about her performance.” Pg. 16 of the Report
and Recommendation. It is my suspicion that a jury would do the math and
determine that it was odd for an employee, who has been with the SBA ODA for
over four years with no incidents and good reviews, to be fired after only a few
months, especially if it viewed the fact that the March 23, 2010 letter assigned
tasks that were humanly impossible to complete in the time frame given.
Federal agencies cannot terminate employees on the basis of sex, race,
national origin, religion, disability, age or retaliation for EEO activity (29 C.F.R.
§1614). In this case, the SBA violated this statute and the district court is going
along with it.
This case is a discrimination and retaliation case. I am a woman in the world
of information technology; a world still dominated by men. My position was
Information Technology Specialist (originally GS-11 when hired) for the SBA, Office
of Disaster Assistance. (As I understand it, the Small Business Administration is
supposed to be the model for private businesses to follow. This would imply that the
SBA should even be held to a higher standard than private employers with regard to
discrimination.)
8

When I first came on board at the ODA, there were no applications (Apps) that
were being used other than the usual MS Word and Excel. The impacts from Katrina
were underway and the office had been ramped up to almost full capacity as far as
the customer service representatives were concerned. There were reports that were
needed by Congress that could not be produced because there was no information
being captured from the thousands of phone calls regarding loan requests, etc. coming
in. This required custom-built applications, which I designed and deployed to the
users.
I had a background in SQL Server and Visual Basic and many other
technologies, as well as a Microsoft Certification in SQL Server, having studied
databases for many years. I completely set up an applications development
department acquiring and implementing SQL Server as the relational database
management system with Visual Basic as the user interface (front end) and Crystal
Reports to produce necessary reports for congress and also for business decisions of
the office. Later I convinced management to purchase Visual Basic .Net (upgrade
from Visual Basic 6) to keep the SBA ODA up to date on the latest Microsoft
technologies for the user interfaces. I worked in this capacity for four years; always
with good reviews, including several Star rewards. I worked with one other part-time
Information Technology Specialist; Mr. Appleby.
What changed?
Mr. Appleby passed away and my boss, Mr. Guido, hired another IT
Specialist; Mr. Malek. I had asked Mr. Guido if I could participate in the interview
process because I knew what the job entailed and would be working with the new
person. Mr. Guido said “yes.” (Mr. Guido had no experience in app development at
all. He had network knowledge and handled things like overseeing computer
setups, server setups and telephone communications.) He did not, however, consult
me at all on the new person, but instead just hired him using another male, also a
network person, to partake in the interview process. Mr. Guido said that he just
“forgot” to include me (without looking at me directly, I might add).
Mr. Malek and Mr. Guido had a close relationship. In fact, after Mr. Malek
was there for only five months, he was promoted to a Project Manager status;
something I was never promoted to. I had four years of experience in the private
sector in project management, and was sent for a course by the SBA in Project
Management.
I was not considered for the Project Management title. At the very least, it
should have been something I was considered for. Although this promotion did not
lead to an immediate salary increase, it did result in a promotion to a GS-13 a little
over a year later.
Mr. Malek could not do the job. He failed miserably (during his one-year
probationary period) when I had to take a two-week leave for cataract surgery. I
felt uncomfortable because Mr. Guido did not have me train Mr. Malek. I even
mentioned it to Mr. Guido the night before taking leave but Mr. Guido assured me
9

that Mr. Malek was totally capable. As I was afraid of, two issues arose while I was
out regarding two of Mr. Appleby’s apps. Mr. Appleby had completely documented
both of these issues, although one didn’t even need documentation. It was simply a
data import via MS Access. Someone with Mr. Malek’s purported Microsoft Access
experience should have easily resolved it. Nevertheless, not only was the
documentation there, but I had gone over these two recurring issues with Mr.
Malek in October. When I did this, Mr. Malek did not appear to be paying
attention. Mr. Malek had been hired to “backfill” for the position Mr. Appleby had
held.
1.

The Applications Manual

The Letter of Expectations outlined projects I was supposed to complete by
May 5, 2010. The Letter of Expectations is dated March 23, 2010. It was physically
impossible for those projects to be completed in the amount of time I was given. Mr.
Guido did that on purpose. Included in the appendix is an Email dated March 18,
2010 from Mr. Guido to Mr. Malek requesting that he give a time estimate for one of
the projects I was assigned. That estimate is 30-32 days, taking into account only
Help Desk tickets and Meetings. My boss was not a programmer and could not
contest my programming skills, so he assigned an application manual, which he could
criticize subjectively (in addition to multiple other tasks).
There is direct proof, through his own testimony, that Mr. Guido knowingly
piled me with work that was impossible to complete in the time frame he gave me in
his deposition at Page 132 to 133:
“... It’s something I originally thought could get caught up in a reasonable way
in a month if dedicated to it” (emphasis added).
Mr. Guido goes on to say
“I mean the notion was to let’s pause on development. Let’s get this caught up
before we do too much more.”
Mr. Guido did not pause on anything, yet he knew I needed at least one month
for just that one project.
So, there was the application manual (taking a month if that’s all I did) per
Mr. Guido’s statement, the SCR project estimated at 30-32 days, Help Desk tickets,
meetings, trainings, and anything else that came up; in other words, in excess of 62
days of work to be completed in 31 days. Mr. Guido deliberately set me up to fail so
he could fire me.
There are 31 work days from March 23, 2010 to May 5, 2010. I was given two
projects, one taking 30-32 business days (which he checked with Mr. Malek) and the
application manual, which he admits in his testimony would take a month, if
dedicated to it.
Along with that, Mr. Guido assigned an absurd amount of meetings, help desk
tickets, trainings, etc. as outlined in his March 23, 2010 letter. He then criticized me
10

for not finishing the manual and gave me another bad review. His actions were
deliberate and designed to fire me because I met with his Supervisor to discuss
discrimination and a hostile work environment at the SBA ODA.
Clearly, it is apparent that this was pretext and he was using this as a vehicle
to fire me in retaliation for speaking about discrimination with his supervisor, which
he continued to build on up to and including his letter recommending that I be fired.
In the past, Mr. Appleby and I each created our own parts of the applications
manual based on our own applications, which made sense. Mr. Malek had been hired
to “backfill” the position after Mr. Appleby passed. As such, normally Mr. Malek
should have been assigned Mr. Appleby’s part of the manual, but instead Mr. Guido
chose to use it as a tool to fire me. Later on in his deposition, Mr. Guido admits that
after I was fired, the 300+ page manual was never used, which only points to the fact
that it was a bogus assignment used to fire me. Mr. Guido admits that now each
developer provides their own documentation; the same way it had been before. See
Pgs. 131-135 - Guido deposition.
Mr. Guido lies in his deposition by stating that the Manual was never
completed. To this day, I have a completed Manual in my possession and it was also
put on the network at the time. It is in color and a good reproduction of it needs to
be printed; not copied in black and white.
This is a matter for a jury to decide.
2.

Never Allowed by Mr. Guido to Respond to False Accusations in
Letters

I had verbally expressed my desire to either discuss accusations or respond to
them in writing, which was flatly refused by Mr. Guido. It wasn’t until I spoke with
Mr. Leggiero, the Director, that I was allowed to respond, both orally and in writing.
That was not until December of 2010, and I believe it was at the advice of SBA
counsel. Mr. Guido not wanting to discuss his accusations with me, only outlines the
fact that his intent was not to
3.

Plaintiff Filed Claims with the EEOC

I finally retained an attorney. She advised me to file claims with the EEOC.
The district court does not recognize that I was in a hostile work
environment, even though I stated the word hostile work environment in my
complaint, along with additional descriptive language of hostility. There are 112
Complaints which use adjectives such as hostile work environment, disparate
treatment, isolate, demean, belittle, accusatory, derogatory, act of intimidation,
condescending, antagonistic, malicious, bullying, suffocating and scrutinizing for
the way I was treated, to name a few. These Complaints are all in Document 31-2;
part of my original EEOC complaint that have been a part of this lawsuit from the
very beginning.

11

The environment was so toxic, I found myself relieved when I had to leave
the office to get a stitch removed from my eye.
A hostile work environment is a basis for a continuing claim, which began
when I spoke to Ms. Hiam about discriminatory practices in the SBA ODA.
The Summary Order also erroneously concludes that the pay disparity claim
was raised for the first time on appeal. This is not true. Claim 82 at 31-2 states both
Mr. Malek and Mr. Parrish were hired as GS-12s and I was hired as a GS-11 for the
same job, but additionally, I completely set up the applications development
department from scratch. They both walked into an established department. My
original complaints were filed in October 2010.
The district court has thrown my claims out as untimely, because they do not
fall within the 45-day limit of filing my EEOC complaint. The fact that Mr. Parrish
was hired on September 10, 2010 as a GS-12 and falls well within that 45-day limit
is ignored. This again is a basis for a continuing claim. It needs to be determined by
a jury.
In the end, I was fired from the entire federal government as is stated in the
November 10, 2010 letter from Mr. Guido. This removal was re-stated in the letter
of January 11, 2011 from Mr. Leggiero in which he fired me. I was not demoted, I
was not transferred; I was fired from all of federal government forever; as if I were a
criminal or something. This was not because I was late to work, it was not because
I did not complete jobs or anything like that. It was because I complained to
management (Ms. Hiam) about the hostile environment and discriminatory practices
in the IT departments of the SBA ODA.
Since this applications manual was a large part of Mr. Guido’s firing me, at the
very least, the applications manual needs to be examined by a jury to see if they agree
that this constitutes a valid reason for firing a federal employee.
I do agree with the district court that there were not enough depositions. One
of the reasons I replaced my original attorneys was because they did not conduct
depositions as I had requested. They had years to accomplish this task. The new
firm I replaced them with at least conducted one, but I think they felt pressured under
time constraints and did not do any more under my objections. It certainly would
have been beneficial not only for me, but for the sake of the understanding of the
district court.
C.

PROCEEDINGS BELOW

Plaintiff DeMuth commenced this action in the Western District of New York,
alleging that she was subject to discrimination, retaliation, and a discriminatory and
retaliatory hostile work environment in violation of Title VII of the Civil Rights Act
12

and the Age Discrimination in Employment Act of 1967. Specifically, she alleged that
she was the victim of gender-plus-age discrimination in violation of Title VII and the
ADEA. Plaintiff further alleged retaliation because of her protected EEO activity and
a discriminatory and retaliatory hostile work environment, in violation of the same
statutory law.
After a period of discovery, the district court granted the SBA's motion for
summary judgment on all of petitioner’s claims.
On appeal, Plaintiff argued that the district court erred in granting summary
judgment in several respects. First, the district court and the Second Circuit erred in
deciding there were no disputed issues of material fact presenting a triable issue on
retaliation when it only made a McDonnell Douglas analysis that ignored
circumstantial evidence of retaliatory intent and pretext. Second, the district court
and the Second Circuit erred because the evidence was sufficient to raise a jury
question of whether discrimination, retaliation, or both was a “motivating factor” for
these actions. Third, the district court erred in dismissing the hostile work
environment claim. Fourth, the district court and the Second Circuit erred in not
allowing the Equal Pay claim, despite the fact the pay differential between men and
women is glaring in this case.
The Third and Fourth issues both trigger a continuing violation, which was
denied by the district court.
Additionally, a large part of my claims were just lumped together in the Report
and Recommendation, never individually addressed and denied. Those claims ranged
from disparate treatment claims to hostile environment claims and unequal pay
claims. These need to be decided by a jury, as they were not addressed in the Report
and Recommendation (see 17a-18a).
The Second Circuit denied plaintiffs timely petition for panel rehearing or
rehearing en banc.
REASONS FOR GRANTING THE WRIT
The district court completely ignored, when granting summary judgment to
defendant, the issue of my complaining to Mr. Guido’s supervisor, Colleen Hiam.
Three weeks after that, I received the first ever disciplinary action taken by Mr.
Guido towards me - the Letter of Expectations. I had met with Ms. Hiam to discuss
the gender inequality in the IT department.at the ODA; that it was dominated by
men and to discuss and to complain about the way Mr. Guido had been treating me
of late, making me feel physically ill. Mr. Guido was very angry for me reporting
this to his Supervisor, Ms. Hiam. Because of this immediate disciplinary action; the
Letter of Expectations and bad review, I was “dissuaded from making or supporting
a charge of discrimination” in filing an EEOC complaint. That’s why it took until I
spoke with an attorney for me to finally file the complaint. Not long after that, I
was fired.
This is a matter for a jury to decide.
13

My initial complaints made to Ms. Hiam were never investigated by HR.
Further, I requested another supervisor. This was not accommodated. I
requested a transfer to another department. This was denied, even though there was
an opening.
Mr. Malek was promoted, not fired, despite the fact that even in at least one
of the letters I received, Mr. Guido complains another technician (meaning Mr.
Malek) was unable to do a complete a task. Instead, Mr. Malek was not only
promoted to Project Manager, but from there was promoted to a GS-13 shortly after
I was fired.
In Hubbell v. Fedex Smartpost, Inc.,___F.3d___ ; 2019 WL 354786 (Aug. 5,
2019), the following is cited:
“. . .In Burlington Northern, however, the Supreme Court rejected that
interpretation. Focusing on the statute’s text, the Court stated that the
antidiscrimination provision is limited to “actions that affect
employment or alter the conditions of the workplace. No such limiting
words appear in the antiretaliation provision.” Id. at 62. After
reviewing the objective of the antiretaliation provision, which is to
ensure access to remedial mechanisms, the Court held that “purpose
reinforces what language already indicates, namely, that the
antiretaliation provision, unlike the substantive provision, is not
limited to discriminatory actions that affect the terms and conditions
of employment.” Id. at 64. Thus, the Court concluded, the
antidiscrimination and antiretaliation provisions “are not
coterminous,” as “the antiretaliation provision extends beyond
workplace-related or employment-related” harms. Id. at 67 (explicitly
“reject[ing]” the Sixth Circuit’s view that the two provisions forbid “the
same conduct”).
Having determined that the antiretaliation provision is not limited to
actions affecting the terms and conditions of the workplace, the Court
next addressed how harmful a retaliatory act must be in order to be
actionable. The Court concluded that the antiretaliation provision
broadly protects against actions that are “materially adverse, which in
this context means it well might have dissuaded a reasonable worker
from making or supporting a charge of discrimination.” Id. at 68
(internal quotation marks and citations omitted). This “material
adversity” standard screens out trivial harms, such as “petty slights”
and “minor annoyances,” which are unlikely to deter victims of
discrimination from complaining, from significant harms. Id. The
standard focuses on the “reactions of a reasonable employee,” the Court
said, because “[a]n objective standard is judicially administrable.”
Id. The Court stressed that “[cjontext matters,” as the “significance of
any given act of retaliation will often depend upon the particular
14

circumstances.” Id. at 69 (relying on Oncale v. Sundowner Offshore
Servs., Inc., 523 U.S. 75, 81-82 (1998)).”
Equal Pay Act
The judge states on Pg 1 that the “SBA hired another programmer who had
about 13 more years of full-time information technology work experience than she
did.” At Page 3 he states “Defendants hired Malek at the GS-12 level, not GS-11,
because he had approximately 13 years of full-time work experience in information
technology before arriving at the ODA.” This is assuming a fact not in evidence.
His resume was not submitted to establish this, despite that it was requested many
times.
More importantly, however, is that the Equal Pay Act directly states on the
Dept, of Labor website:
“Skill: Measured by factors such as the experience, ability,
education, and training required to perform the job. The issue is
what skills are required for the job, not what skills the individual
employees may have.”
The district court is misinterpreting the meaning of the Equal Pay Act and, thus, not
enforcing the Act.
CLARIFICATION
Please note that the Summary Order Second Circuit dated 7/7/20 drops some
of my claims because I did not restate them. This was not my intention. I was merely
trying to save the Courts time, as they have been stated and re-stated many times. I
included a statement to that effect in the Petition for Hearing and Rehearing. I, in
no way, meant to drop these claims. I am obviously not an attorney.
IS SUMMARY JUDGMENT CONSTITUTIONAL AND APPROPRIATE
IN DISCRIMINATION LAWSUITS
Is it logical, specifically in discrimination cases, to use summary judgment?
Discrimination cases consist of people and the interactions with people. Credibility
is largely judged by body language and people’s reactions to questions. Distilling
this to paper takes away personalities and their interactions, which is what
discrimination cases are all about. In this way, summary judgment denies
credibility testing.
You basically are getting hearsay evidence; lawyers give their accounting of
what they think (or maybe wish) the story is. It’s similar to the game of gossip. It’s
also dependent on how well attorneys listen to their clients. Additionally, there is
no benefit of cross-examination.

15

With summary judgment, cases boil down to being which lawyer can tell the
better story, instead of being decided on the actual truth of the matters with all the
actors being present.
Judges are required to be the judge and jury, which is a physical fallacy and
unfair to judges. The Seventh article of the Constitution gives everyone the right to
a fair trial. It seems unlikely that our forefathers intended our justice system to
result in this strange practice. It seems more likely that they would have approved
of expanding the court system to be in sync with the growing population; not take
away a Constitutional right to try to effect efficiency which, in this case, is dubious.
CONCLUSION
For the foregoing reasons, this Court should grant this petition and issue a
writ of certiorari to review the judgment and opinion of the District Court and the
Second Circuit Court of Appeals.
I just want to add I am extremely disappointed in our judicial system. I have
spent in excess of $20,000 in legal fees thus far. Who has that kind of money in this
world after you have lost your job? I am still paying off credit cards for legal bills
with interest and expect to have to well into the future. This becomes a case of the
victim becoming a double victim. Discrimination victims need better remedies.
February 21, 2021
Respectfully submitted,
SANDRA DEMUTH, Pro Se
14 Alys Dr. E.,
Depew, New York 14043
Telephone: 716-681-2257
Email: sdemuth@earthlink.net

16

